INFORMATION SECURITY PROGRAM

     Department of Transportation

      Report Number: FI-2005-001
      Date Issued: October 1, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Information Security                  Date:    October 1, 2004
           Program, Department of Transportation
           FI-2005-001

  From:    Alexis M. Stefani                                   Reply to
                                                               Attn. of:   JA-20
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Chief Information Officer

           This report presents the results of our audit of the information security program at
           the Department of Transportation (DOT). Responding to the Federal Information
           Security Management Act (FISMA) of 2002, our audit objectives were to (1)
           assess DOT’s progress in correcting weaknesses identified in last year’s FISMA
           review, and (2) provide input to DOT’s annual FISMA report by answering
           questions specified by the Office of Management and Budget (OMB). Our input to
           DOT’s annual FISMA report is in Exhibit A.

           This year, we tested a subset of DOT systems that had undergone system security
           certification reviews to determine whether DOT has complied with Government
           standards in assessing system risks, identifying security requirements, testing
           security controls, and accrediting systems as able to support business operations.
           In addition, we reviewed the reasonableness of DOT’s continued reduction of
           computer systems in its inventory (from 630 to 485) during fiscal year (FY) 2004.

           Our review was conducted in accordance with Government Auditing Standards
           prescribed by the Comptroller General of the United States. Our scope and
           methodology are described in Exhibit B.

           INTRODUCTION
           FISMA requires Federal agencies to identify and provide security protections
           commensurate with the risk and magnitude of harm resulting from the loss of,
           misuse of, unauthorized access to, or modification of information collected or
           maintained by or on behalf of an agency. Because DOT maintains one of the
           largest portfolios of information technology (IT) investments of Federal civilian
                                                                                                                       2


agencies, it is critical that DOT protects its systems and sensitive data.                                            In
FY 2004, DOT’s information technology budget totaled about $2.7 billion.

DOT has 12 Operating Administrations (OA) (listed in Exhibit C) with
485 computer systems. DOT is also responsible for operating the air traffic
control system, which has been designated as part of the Nation’s critical
infrastructure by the President (Homeland Security Presidential Directive
7, December 2003). DOT systems include safety-sensitive air traffic control and
surface transportation systems, as well as financial systems that disburse over
$50 billion in Federal funds each year.

RESULTS IN BRIEF
For the last 3 years, DOT has reported its information security program as a
material internal control weakness under the Federal Managers’ Financial Integrity
Act (FMFIA).1 During FY 2004, DOT made a concerted effort to correct
weaknesses identified in previous years. The most noteworthy improvements
DOT has made since we began the annual information security review in FY 2001
include:

• Increased oversight of IT investment management and security controls.
  During FY 2004, the departmental Investment Review Board expanded its
  review of OA investment projects and directed OAs to evaluate cost saving
  opportunities by consolidating systems of common interests, such as grant
  management. The Office of the Chief Information Officer (CIO office) also
  performed more in-depth reviews of IT budget requests submitted by OAs than
  in prior years.

• Strengthened protection of DOT’s network infrastructure against internal and
  external attacks. During FY 2004, DOT expanded its vulnerability checks to
  cover not only its public web sites but also computers on OA private networks.
  The CIO office also issued guidelines for configuring computers in a secure
  manner to prevent vulnerabilities.

• Improved integrity, confidentiality, and availability of DOT program
  operations that depend on computer systems support. During FY 2004, DOT


1
    A material internal control weakness is a significant deficiency in an agency’s overall information systems security
    program or management control structure, or within one or more information systems that (1) significantly restricts
    the capability of the agency to carry out its mission, or (2) compromises the security of its information, information
    systems, personnel, or other resources, operations, or assets. The risk is great enough that the agency head and
    outside agencies must be notified and immediate or near-immediate corrective action must be taken. (OMB
    Guidance on “FY 2004 Reporting Instructions for the Federal Information Security Management Act,” M-04-25,
    August 23, 2004.)
                                                                                    3


   increased the percentage of systems completing the security certification
   review from 33 percent to over 90 percent.

Although DOT has made significant progress, this report identifies security issues
that require continued management attention. The most significant remaining
issues are summarized below:

The CIO office and OAs need to better coordinate IT budget requests in
order to more clearly describe the sources and uses of IT funds. This may
require changes in how budget funds are allocated between the CIO office and the
OAs. For example, an important DOT initiative is to consolidate multiple systems
maintained by individual OAs in 11 common business areas. Historically, each
OA made its own investment decisions and submitted separate budget requests to
fund its system operations. Consolidating systems in these common business
areas will require a more centralized approach, and the Department may have to
adjust its IT project management and budget submission practices. For example,
consolidation efforts may require the CIO office or one OA to take the lead,
resulting in shifting budget requests among the OAs.

The FY 2006 budget will need to more clearly describe this consolidation effort
and tie together the individual OA requests in each area so that oversight groups
such as the Office of the Secretary, OMB, and congressional appropriators can
understand the investments being made and the expected benefits of consolidating
systems in each business area. At the request of the Senate Appropriations
Committee, we are conducting an evaluation of the Department’s IT budget
submission and progress in enhancing IT investment controls and IT security. The
report, which will be issued in the first quarter of FY 2005, will contain the results
and specific actions needed to improve IT budget presentations, including the need
to clarify project management and budget responsibilities of the CIO office and
OAs.

The quality of security certification reviews needs to be improved. The
Department has made good progress in completing security certification reviews
during FY 2004. However, when we checked a sample of 20 systems, we
identified one or more deficiencies in 14 cases. These deficiencies included
inadequate assessments of the risks facing the system; lack of evidence that tests
were performed and in one case, a test item that had been listed as “passed” failed
when we re-tested it; incomplete presentations of remaining weaknesses to
responsible senior officials; and approval to operate by senior officials who may
not have adequate authority to correct the remaining problems. The CIO office
needs to continue its efforts to enhance the quality of OA security certification
reviews.
                                                                                                                      4


Air traffic control system security must be enhanced. During FY 2004, we
issued an audit report concerning security and controls over air traffic control
en route computer systems.2 En route systems are used to control high-altitude
(over 18,000 feet) traffic. The report concluded that while air traffic control
en route computer systems have limited exposure to the general public, they need
to be better protected. Two issues in particular deserve special attention. First,
although the Federal Aviation Administration (FAA) had certified that the en route
systems we reviewed were adequately secured, the reviews were limited to
developmental systems located at FAA’s Technical Center computer laboratory.
Operational systems deployed to en route centers also need to be reviewed. FAA
has agreed to review operational en route systems but, to comply with FISMA
requirements, FAA needs to commit to reviewing all operational air traffic control
systems—at en route, approach control, and airport terminal facilities—within
3 years. Second, FAA has agreed to identify a cost-effective contingency plan to
restore essential air service in the event of a prolonged disruption of service at an
en route facility. FAA will use the results of an alternatives analysis, due in
December 2004, to identify a cost-effective alternative. FAA needs to commit to
making the implementation of a robust contingency plan a priority.

Based on the progress the Department has made and the current status of the
security program, we are of the opinion that the DOT’s information security
program should be considered a reportable condition.3 We plan to continue
reviewing DOT’s computer security program, focusing particular attention on
FAA’s progress in strengthening security over air traffic control systems. DOT,
and FAA in particular, needs to make certain that it follows through aggressively
to implement corrective actions in order to prevent the security program from
deteriorating into a significant deficiency next year. Progress completing
certification reviews of air traffic control systems and progress implementing and
testing an en route center contingency plan will be key measures of FAA’s
commitment to address these issues.

We make a series of recommendations on pages 19 through 21 of this report to
help the Department further enhance its information security protection and
oversight of its multi-billion dollar annual IT investments. The departmental CIO
office agreed with our findings and recommendations. We have requested DOT to

2
    OIG Report Number FI-2004-078, “Audit of Security and Controls over En Route Center Computer Systems,”
    August 9, 2004. OIG reports can be accessed on our website: www.oig.dot.gov. The Department has determined
    that this report contains Sensitive Security Information (SSI) as defined by 49 CFR Part 1520. Accordingly, it is not
    available for public inspection or copying. The regulations provide that, under the Freedom of Information Act
    (FOIA) and the Privacy Act, should a document contain both SSI and non-SSI information, the Department may
    disclose the document with the SSI information redacted, so long as this information is not otherwise exempt from
    disclosure under FOIA or the Privacy Act.
3
    A reportable condition is a security or management control weakness that does not rise to level of a significant
    deficiency, yet is still important enough to be reported to internal management. (OMB Guidance on “FY 2004
    Reporting Instructions for the Federal Information Security Management Act,” M-04-25, August 23, 2004.)
                                                                                                                   5


provide written comments describing the specific actions it will take to implement
the recommendations.

FINDINGS AND RECOMMENDATIONS

Management Controls
DOT, with an annual IT budget of about $2.7 billion, is responsible for one of the
largest IT investment portfolios among civilian agencies. The Clinger-Cohen Act
requires DOT to appoint a CIO responsible for ensuring cost-effective IT
investments, including proper security protection. In FY 2003, we reported that
DOT appointed a CIO and increased the CIO’s influence over IT decisions by
forming a departmental Investment Review Board (the Board). The Board,
chaired by the Deputy Secretary, has the authority to approve, modify, or
terminate major IT investments. DOT’s ability to improve computer security is
closely tied to the effectiveness of the IT review process because security must be
considered when making investment decisions. Much of the value added by the
establishment of the CIO office will come through its involvement in investment
decisions.

Last year, we concluded that it was too early to judge whether these changes
would substantially improve DOT’s oversight of IT investments and security.
Specifically, we were concerned that the Board had focused its reviews on
department-wide IT projects, such as implementation of a new departmental
accounting system, and had provided little oversight of OA-specific IT investment
projects. This was inadequate, considering that over 90 percent of the
Department’s IT budget is appropriated directly to OAs and a number of their
investments had experienced significant cost overruns and schedule delays in
recent years. We were also concerned with the lack of substantive, in-depth
review of OA information technology budget submissions and poor
communications between the Board and the OAs.4

Last year, we recommended that the CIO office develop specific criteria for
selecting high-risk IT investment projects for the Board to review, provide more
insightful oversight of IT budget requests, and ensure proper OA representation at
the Board’s meetings and appropriate departmental representation at OA meetings.
At the request of the Senate Appropriations Committee, we are also evaluating the


4
    Seventy percent (42 out of 60) of the business cases for major IT investments submitted in FY 2003 were initially
    rejected by the Office of Management and Budget due to a lack of proper alternative analyses, performance
    evaluations, and life-cycle cost estimates.
                                                                                                                    6


Department’s progress in enhancing IT investment controls and IT security. The
following summarizes the progress and improvements still needed.

The Board Needs a Better Process To Select Projects for Review
The Board has expanded its review of OA-specific IT investments. However, its
review has focused on projects that are already considered troubled because they
have experienced more than 10 percent cost increases or schedule delays. During
FY 2004, the Board reviewed 10 IT projects managed by 7 OAs, including
complicated air traffic control modernization projects. These projects were
deemed “at risk” and selected for Board review primarily because they had a more
than 10 percent increase in cost or schedule targets. However, other high-risk
projects were not reviewed because they did not show a more than 10 percent cost
or schedule overrun after having been “re-baselined.”5 These projects nonetheless
still need senior management’s close attention to prevent a recurrence of problems.

In recent years, we have issued several audit reports on FAA’s major acquisitions
involving extensive software development work that require senior management
level attention.6 We reported that of 20 major acquisitions reviewed, 13 projects
had experienced schedule slips of 1 to 7 years, and 14 projects had experienced
cost growth of over $4.3 billion (increasing from $6.8 billion to $11.1 billion).
Yet, the list of projects reviewed by the Board in FY 2004 did not include many of
those we reported as having cost and schedule problems. In response to our work,
the Board added three of FAA’s major acquisition projects to its watch list—the
Wide Area Augmentation System (WAAS), the Standard Terminal Automation
Replacement System (STARS), and the Integrated Terminal Weather System
(ITWS).

While reviewing troubled projects is important, the Board also needs to monitor
projects that have not yet exceeded the 10 percent threshold in order to prevent
projects from becoming troubled. A key objective of the Board should be to
prevent projects from breaching the threshold (10 percent overruns) and becoming
“troubled.” This is especially important considering that FAA is beginning new,
costly, and complex acquisition programs such as the En Route Automation
Modernization Program (ERAM), which will cost billions of dollars to implement,
to provide new hardware and software for facilities that manage high altitude
traffic. In September 2004, the CIO office updated its criteria for selecting at-risk
projects for the Board’s review, including projects re-baselined and projects

5
    The original cost estimates and planned implementation schedule displayed in business cases (also called Exhibit
    300s) are referred to as “baselines” for project management. The original cost and schedule baseline on the 300 can
    be changed (“re-baselined”) upon approval by the Office of Management and Budget.
6
    OIG Report Number PT-2004-006, “DOT Top Management Challenges,” December 5, 2003, and OIG Report
    Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 26, 2003.
                                                                                                  7


showing a negative trend. We will report the progress of using these new criteria
in selecting investment projects for the Board’s review in next year’s report.

Better Cost Estimates for IT Investments Are Needed
This year, both the Board and the CIO office performed more substantive, in-depth
reviews of OA information technology budget submissions. During FY 2004, the
Department prepared 58 business cases, also called Exhibit 300s by OMB, for
major IT investment projects, totaling $2.1 billion. These budget requests were
submitted for review much earlier than last year, thus allowing a more substantive
review by the CIO office. This early start, in conjunction with more experience in
reviewing IT investment projects, helped strengthen DOT’s investment
management controls. However, we continue to find that cost estimates for IT
investment projects lack adequate support despite the existence of departmental
guidance.7

Project Management and Budget Responsibilities for IT Consolidation
Initiatives Need To Be Defined
The Board provided more insightful oversight during the budget review process.
However, the CIO office and OAs need to better coordinate IT budget requests in
order to more clearly describe the sources and uses of IT funds. This may require
changes in how budget funds are allocated between the CIO office and the OAs.
For example, an important DOT initiative is to consolidate multiple systems
maintained by individual OAs in 11 common business areas. Historically, each
OA made its own investment decisions and submitted a separate budget request to
fund its system operations. Consolidating systems in these common business
areas will require a more centralized approach, and the Department may have to
adjust its IT project management and budget submission practices. For example,
consolidation efforts may require the CIO office or one OA to take the lead,
resulting in shifting budget requests among the OAs.

The FY 2006 budget will need to more clearly describe this consolidation effort
and tie together the individual OA requests in each area so that oversight groups
such as the Office of the Secretary, OMB, and congressional appropriators can
understand the investments being made and the expected benefits of consolidating
systems in each business area. At the request of the Senate Appropriations
Committee, we are conducting an evaluation of the Department’s IT budget
submission and progress in enhancing IT investment controls and IT security. The
report, which will be issued in the first quarter of FY 2005, will contain the results
and specific actions needed to improve IT budget presentations, including the need

7
    OIG Report MH-2004-068, “Investment Review Board’s Deliberations on the Motor Carrier Management
    Information System,” June 29, 2004.
                                                                                  8


to clarify project management and budget responsibilities of the CIO office and
OAs.

Better OA Review of IT Investment Projects Is Needed
The communications between the Board and the OAs have improved significantly.
During FY 2004, the Board expanded its membership to include OA
representatives. The Federal Aviation Administrator has joined the Board as a
voting member in reviewing and approving major IT investment projects. In
addition, the Board created three additional members who will rotate among the
remaining OAs. While the Board benefited from the OAs’ input when reviewing
major IT investment projects, more needs to be done to ensure that OA investment
review boards operate effectively.

DOT guidance authorizes each agency to establish its own Board to review IT
investment projects.        The departmental Board reviews only major
investments—projects exceeding certain dollar thresholds or those deemed to have
a significant impact on departmental missions. IT investment projects not meeting
these criteria are deemed non-major. These investment projects, totaling
$600 million, should have been reviewed by OA Boards in accordance with the
DOT policy. However, we found that non-major projects were not being
adequately reviewed.

The CIO office needs to ensure that OAs follow departmental guidance when
estimating IT project costs and OA Investment Review Boards adequately review
and manage all IT investments.

Network and Internet (Web) Services Security
DOT uses over 400 public web sites to provide Internet services to the public and
thousands of computers on its private networks to process sensitive information.
Together, they form the IT infrastructure to support DOT missions. DOT has
made significant strides in securing this infrastructure since we started performing
annual computer security audits in FY 2001.

In FY 2001, we reported weaknesses in DOT’s firewall security that allowed us to
gain unauthorized access from the Internet to about 270 computers located within
DOT’s private network. In FY 2002, we reported that DOT had strengthened
security over the Internet entry points (the “front door”). However, we found
hundreds of unauthorized or unsecured telephone line connections to DOT
networks (the “back door”) and hundreds of vulnerabilities in DOT web sites,
which made the web sites vulnerable to denial-of-service attacks or defacement.
In FY 2003, we reported that DOT added security to its back-door network
connections, established security incidents response centers, and started checking
                                                                                                                      9


public web sites for potential vulnerabilities. However, we also reported that
computers on DOT’s private networks were not checked for potential
vulnerabilities, and DOT did not report all major security incidents to the
responsible Federal authority.

During FY 2004, DOT took corrective actions by requiring OAs to perform
vulnerability checks on their network computers, issuing guidance for secure
configuration (or setup) of computers, and reporting all major incidents to the
Federal authority. However, we identified the following concerns associated with
the OAs’ vulnerability checks, configuration management, and security assurances
from third-party contractors.

Vulnerability Checks Are Incomplete
The OAs’ vulnerability checks did not cover all computers on their private
networks, and vulnerabilities found were not always corrected in a timely fashion.
For example, we found that FAA checked vulnerabilities on major computer
servers but not on end-user computers. As a result, tens of thousands of
workstations on its networks have not been checked for vulnerabilities. The same
limitation also applied to the Merchant Marine Academy’s workstations. We also
found that there is a lack of prompt corrections of the vulnerabilities identified on
public web sites and on the Federal Railroad Administration’s private networks.

Configuration Management Controls Need Improvement
Configuration management controls need enhancement and enforcement. Proper
configuration is key to preventing computer vulnerabilities.8 FISMA requires
each agency to develop specific IT security configuration requirements that meet
its needs and to ensure compliance with them. During 2004, the CIO office issued
security baseline standards for configuring computers using these five software
packages: server-based Windows, Linux, Solaris, Cisco (router), and wireless
devices such as the Personal Digital Assistants (PDA). OAs were required to
configure their computers in accordance with these baseline standards by
August 1, 2004.

While DOT is moving in the right direction to implement configuration
management controls, it needs to issue configuration standards for additional
commonly used software and to develop a process to ensure that the controls are
implemented. The CIO office needs to develop configuration standards for at least
three additional software packages commonly used to support DOT
operations—PC-based Windows, the Oracle database, and web applications.

8
    For example, hackers can easily take total (root-level) control of a computer that is not configured with a password-
    protected system administrator account.
                                                                                                                 10



We estimate that three-quarters of the desk top computers on DOT networks use
PC-based Windows software to store, process, and transmit data. The Oracle
database is used in key application systems, such as the departmental accounting
system (Delphi), the Federal Highway Administration’s grant management
system, FAA’s labor distribution system, and the National Highway Traffic Safety
Administration’s defect investigation system. Web application software is used
not only to program web sites, but also to serve as the front-door interface to key
DOT systems. Vulnerabilities embedded in web application software could leave
DOT systems open to attacks. For example, in FY 2003, we found web
application vulnerabilities in the departmental accounting system that could have
allowed intruders to access sensitive information. In FY 2004, one of DOT’s web
sites was defaced due to improper configuration of web application software.
Both vulnerabilities have been eliminated. In response to our recommendations,
the CIO office issued draft standards for secure configuration of the Oracle
database on September 27, 2004 and for web applications on September 29, 2004.

Issuing security configuration standards alone is not enough to ensure computer
security. As required by FISMA, agencies must establish an enforcement program
to ensure adequate monitoring and maintenance of the established configuration
standards. The CIO office needs to periodically verify OA compliance with the
issued standards.

Web Service Contractors Did Not Provide Security Assurance
OAs did not obtain security assurance for contractor-operated web sites. DOT has
over 400 public web sites, some of which are operated by third-party contractors.
In FY 2002, we recommended that DOT require written assurance from
third-party contractors that the outsourced DOT web sites are adequately protected
from cyber attacks. In response to our recommendations, the Assistant Secretary
for Administration issued a memorandum in February 2003 requiring that
contractors provide written assurance that all systems operated on behalf of DOT
had adequate security protections and that DOT could inspect their operations.9

More than a year later, we found DOT has not effectively implemented this
requirement. During FY 2004, using commercial scanning software, we scanned
16 OA web sites that were operated by third-party contractors. We identified a
total of 57 vulnerabilities (8 high and 49 medium).10 The summary of the
scanning result is shown in Table 1.

9
     DOT memorandum, “Information Security Requirements,” February 13, 2003.
10
     High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
     execution of remote commands. Medium-risk vulnerabilities may provide an attacker with useful information, such
     as password files that they can then use to compromise a computer system.
                                                                                 11


      Table 1. Scanning Result of DOT Third-Party Websites
                 Operating              Vulnerabilities       Number of
               Administration*          Confirmed and          Websites
                                          Corrected            Scanned
                                       High    Medium
                FAA                      0           4           1
                FHWA                     2           21          6
                FMCSA                    0           7           1
                FRA                      4            7          3
                FTA                      0           4           1
                OST                      1            2          2
                RSPA                     1            4          2

                 Total                   8           49         16

               * See Exhibit C for definitions of acronyms.

While OAs took immediate actions to eliminate all of these vulnerabilities, most
could not provide us with security assurance from their contractors. We asked
OAs to provide us with the written security assurance and any supporting
documentation, such as the vendor’s IT security plan, self-assessment results, or
independent evaluation reports. The Federal Highway Administration provided us
its contractors’ IT security plans. The Office of the Secretary, the Federal Transit
Administration, and the Federal Motor Carrier Safety Administration provided
certification and accreditation packages prepared by DOT for these contractor-
operated web sites, but not any contractor-provided assurance. Other OAs did not
provide any evidence. Providing security assurance to DOT is part of each
contract and should be enforced because the lack of assurance puts the integrity,
confidentiality, and availability of DOT business operations at risk.

The CIO office needs to verify the completeness of OAs’ vulnerability checks,
ensure that timely corrective actions are taken by OAs, finalize software
configuration standards for Oracle database and web applications, develop
standards for PC-based Windows, check OA compliance with configuration
standards, and require OAs to obtain annual security assurance from contractors
operating DOT-sponsored web sites or terminate the contractors’ services.

System Security
Historically, one of the persistent weaknesses concerning DOT’s information
security program was the lack of system security certification reviews. They are a
critical and effective measure to ensure systems are adequately secured
commensurate with their individual operational risks. DOT had trailed behind the
Government average by having only 10, 12, and 33 percent of its systems
                                                                              12


complete such reviews during FY 2001, FY 2002, and FY 2003, respectively. In
FY 2003, we also reported cases where systems were certified as secure without
having been tested, systems were accredited for operations by personnel not in a
position to do so, and estimated security costs were not supported or documented.
We recommended that the CIO office perform quality assurance checks of OA
security certification reviews.

During FY 2004, DOT made a concerted effort to increase the number of system
security certification reviews and reported that 97 percent of its systems had
completed such reviews. Meanwhile, DOT reduced its system inventory from
630 systems to 485 (a reduction of 145). FAA reduced its inventory from
421 systems to 285 (a reduction of 136)—94 percent of the total reduction.
Table 2 shows the change in inventory between FY 2003 and FY 2004 and the
number of systems certified by OA.

                Table 2. DOT System Inventory Changes
            Operating                  FY 2003       FY 2004   FY 2004
          Administration*               Total         Total    Certified
       BTS                                 7             4           4
       FAA                              421           285         274
       FHWA                              25            24          24
       FMCSA                             19            19          19
       FRA                               22            22          22
       FTA                                 7             9           9
       MARAD                             12            12          11
       NHTSA                             42            38          38
       OST                               46            54          54
       RSPA                              25            15          15
       STB                                 3             2           2
       SLSDC                               1             1           1
        Total                           630           485         473
      * See Exhibit C for definitions of acronyms.

FAA stated that the overall reduction of 136 systems was primarily due to
inventory consolidation, system additions, and system retirements. FAA provided
documentation supporting the changes from last year. We reconciled FAA’s
system inventory to last year’s record to ensure that all system components were
accounted for. In addition, we reviewed the certification work performed on 20
systems to ensure the quality of the work. The following summarizes our review
results.
                                                                              13


A Significant Amount of Work Remains for Security Certification
Reviews
While FAA provided adequate support to reconcile the inventory records between
the 2 years, we found that it will require continued management support and
monitoring to complete the remaining certification reviews.

• Inventory adjustments were supported. Based on our analysis, inventory
  consolidation accounted for the majority of system reduction. We selected
  nine systems from the consolidation listing for review and found that they all
  were properly incorporated as components (sub-systems) of other systems in
  FAA’s inventory.

• Systems remain to be certified. Six of the 11 systems remaining to be
  certified in FAA’s inventory record involve local area network systems
  installed at hundreds of locations. Since there is no assurance that network
  systems at all these locations have the same configuration or operate the same
  way, FAA may have to perform certification reviews at all installation sites.
  This could require a significant amount of work.

Quality of Security Certification Reviews Needs Improvement
Our sample review of 20 systems identified deficiencies in 14 cases. Deficiencies
were in the areas of assessing system risk levels, testing security controls,
informing senior management of remaining security weaknesses, and approving
systems for operations through accreditation as shown in Table 3.
                                                                                             14


      Table 3. Quality of System Security Certification Reviews
                                            No
                          Inadequate     Evidence
 Systems Sampled*            Risk           of         Failed   Weaknesses   Weaknesses   Accredited
(Number of Systems)          Level       Security       Our        Not          Not       By Inappro.
                          Assessment      Testing       Test    Summarized   Mentioned      Official
BTS Statistics Sys (1)         1            --           --         --           1             1
FAA: Air Traffic
        Control (5)              1            3         N/A         1            4            --
        Others (5)               1            --        N/A         3            1            --
FHWA Network (1)                 --           --         --         1            --           --
FTA Network (1)                  --           --         --          1           --           --
FMCSA Network (1)                --           --         --         --           1            --
MARAD Financial (1)              --           --         1           1           --           --
NHTSA Safety (1)                 --           --         --          1           --           1
OST: Network (2)                 --           --        N/A         1            1            2
        Telephone (1)            --           --        N/A         1            --           1
RSPA Network (1)                 --           --         --         1            --           --
 Total                           3            3          1          11           8            5
 * See Exhibit C for definitions of acronyms.
   N/A=We did not select these systems for independent tests.


• The system risk level was not properly assessed for 3 of 20 systems we
  reviewed. This assessment is part of the overall system risk assessment and is
  critical to determining the level of security protection and degree of testing
  needed to certify that a system is adequately secured. The National Institute of
  Standards and Technology and DOT have issued specific guidelines directing
  OAs to perform such assessments based on the impact on agency business
  should the system operations be compromised. We found that FAA assigned a
  low-risk level to, and accordingly required low security protection and testing
  for, two important systems—an air traffic control surveillance system and a
  labor distribution system that is used to manage labor forces and costs.
  However, FAA had not performed the business impact analysis to justify the
  low-risk rating.

     We also found that the Bureau of Transportation Statistics (BTS) did not assign
     any risk level or perform any business impact analysis for a critical
     transportation statistics system. That system is widely used by DOT and the
     industry to set rates for essential air services and to monitor major trends in the
     transportation industry. Despite the lack of a risk assessment, BTS reported
     that the system was adequately secured commensurate with the associated
     risks.

• There was no evidence of testing for 3 of 20 systems we reviewed. One of the
  key parts of the security certification review is the security testing and
  evaluation process, which determines the system’s compliance with specified
                                                                                   15


   security requirements. We did not find any documented evidence of security
   control testing for three of the five air traffic control systems we sampled.

   For the seven systems outside of FAA and the Office of the Secretary, we
   randomly selected control items marked as “passed” on the evaluation sheets
   and subjected them to an independent testing. In one case—a Maritime
   Administration financial system—the item we tested failed in our presence.
   The system did not lock the user out after three unsuccessful logon attempts, as
   indicated in testing documents. This is a basic but important access control.

• Remaining security weaknesses were not summarized so that accrediting
  officials could easily evaluate remaining risks for 19 of 20 systems we
  reviewed. The final step in a security certification and accreditation review is
  for the authorizing official to accept (or accredit) the system as adequately
  secured commensurate with its associated risks to support business operations.
  The authorizing officials need to know what remaining risks and corrective
  actions are planned before approving the system for operations.

   All 20 systems we reviewed have remaining security weaknesses pending
   corrections, but in only one case were remaining risks clearly summarized in
   the signed certification letter. In 11 cases, the certification letter mentioned
   that risks remained and referred the official to an attachment that described the
   risks. However, the attachment (also called Plan of Actions and Milestones by
   OMB) is a low-level document detailing individual security weaknesses found
   and the progress of correction. It does not provide summary information the
   senior official needs to understand the remaining risks before accrediting the
   system for operations. In eight cases, the certification letter did not even
   mention that remaining risks were described in an attachment. Current DOT
   policy does not require risks to be summarized in the certification letter.
   However, because accepting the remaining risks is the key element in the
   accreditation process, we believe the risks should be clearly stated in the letter.

• Systems were not accredited for operations by the appropriate senior official
  for 5 of 20 systems we reviewed. Federal and DOT guidance requires the
  senior official who is primarily responsible for using a computer system (the
  system user) to accredit the system for operations. Obtaining system
  accreditation from the correct authorizing official is critical because this
  official has to accept the system risk (impact) on business operations and
  should also be able to allocate budget resources to secure the system. We
  found that three Office of the Secretary communication systems and a National
  Highway Traffic Safety Administration safety system were accredited by
  technical managers, rather than by senior officials at a high enough level to
  make budget trade-off decisions to allocate resources to address remaining
                                                                                  16


   problems. In addition, the BTS transportation statistics system had not been
   accredited by the system user organization, even though BTS reported it had
   been accepted for operations. All BTS provided was a certification statement
   approved by its CIO stating that the system had passed testing.

During FY 2004, the CIO office performed quality assurance checks on OAs’
security certification work on 14 systems, but it did not share the review results
with OAs. The CIO office needs to increase the number of quality assurance
checks of OA security certification reviews, share the results with OAs to ensure
that improvements are communicated widely, and issue guidance to ensure
accrediting officials are properly informed of remaining security weaknesses.

We are also recommending that the CIO office require FAA to justify the low risk
level of the air traffic control surveillance system and the labor distribution
system, examine FAA’s procedures for testing air traffic control systems security,
modify its policy to ensure that accreditation statements are approved by
appropriate senior officials, remove the BTS transportation statistics system from
the list of accredited systems, and examine the security certification review
process employed by BTS for appropriateness.

Protecting Critical National Infrastructure
The President designated the air traffic control system as part of the critical
national infrastructure due to the important role commercial aviation plays in
fostering and sustaining the national economy and ensuring the safety and
mobility of citizens. FAA is responsible for ensuring that air traffic control
facilities, systems, and operations are (1) protected from disruption from man-
made or natural events, and (2) able to resume services in a timely manner if
services are disrupted. Operational disruptions at any air traffic control facility
have the potential to create significant delays and interruption of air service.
Prolonged outages at major facilities, such as an en route center, would severely
disrupt air traffic, causing significant economic losses and subjecting travelers to
delays and inconvenience.

In FY 2003, we reported that FAA’s security certification review of air traffic
control systems was too limited to provide assurance that operational systems
were adequately secure. The reviews covered only the developmental (prototype)
systems operating at the FAA computer laboratory. FAA has agreed to develop a
timetable to have all operational systems reviewed for adequate security but has
not yet established a schedule.

During FY 2004, we issued an audit report concerning security and controls over
air traffic control en route computer systems. En route systems are used to control
high-altitude (over 18,000 feet) traffic. The report concluded that while air traffic
                                                                                    17


control en route computer systems have limited exposure to the general public,
they need to be better protected. We made specific recommendations to enhance
system, physical, and network access security; reduce risks of en route service
disruptions; strengthen FAA’s overall contingency planning; and improve the
security review process for air traffic control computer systems.

FAA management concurred with our findings and is taking corrective actions
that, when fully implemented, will enhance the integrity and availability of
en route computer system operations. In that regard, two important issues deserve
special attention. First, although FAA had certified that the en route systems we
reviewed were adequately secured, the reviews were limited to developmental
systems located at FAA’s Technical Center computer laboratory. Operational
systems deployed to en route centers also need to be reviewed. FAA has agreed to
review operational en route systems, but, to comply with FISMA requirements,
FAA needs to commit to reviewing all operational air traffic control systems—at
en route, approach control, and airport terminal facilities—within 3 years.
Second, FAA has agreed to identify a cost-effective contingency plan to restore
essential air service in the event of a prolonged disruption of service at an en route
facility. FAA will use the results of an alternatives analysis, due in December
2004, to identify a cost-effective alternative. FAA needs to commit to making the
implementation of a robust contingency plan a priority.

We are recommending that the departmental Investment Review Board monitor
FAA’s implementation of these corrective actions to ensure that FAA
(1) completes security certification reviews of all operational air traffic control
systems within 3 years and (2) implements and tests a cost-effective contingency
plan to restore essential air service in the event of a prolonged service disruption at
an en route facility. We plan to continue reviewing air traffic control security
issues and FAA’s progress correcting the deficiencies. We will report on the air
traffic control system’s security status in next year’s FISMA report.

System Contingency and Continuity Planning
Contingency plans allow business operations that depend on information systems
to continue operating during system service disruptions. In FY 2003, we reported
inadequate contingency planning for DOT systems (only 26 percent of systems
had such plans) and inadequate testing at recovery sites. In addition, we reported
that, to reduce the probability of losing both sites to the same disaster, DOT needs
to develop guidance on the minimum geographic distance between system primary
and recovery processing sites. We found cases where the backup sites were within
10, 15, or 25 miles of the primary sites for systems critical to DOT operations.

During FY 2004, DOT emphasized this area and reported that about 93 percent of
systems now have contingency plans. In May 2004, DOT participated in the
                                                                                    18


Forward Challenge Exercise. The exercise focused on testing the communications
capability between the departmental and the OA command centers, in case the
DOT Headquarters became uninhabitable. All DOT components participated in
the exercise and tested the communications capability with cell phones and
e-mails.

We reviewed the contingency plans for eight business application systems within
four OAs. These systems are used to support a wide range of business functions.
We found that two systems did not have off-site disaster recovery capabilities, and
that three of the remaining six systems had no evidence of testing at the designated
disaster recovery sites. Table 4 shows the results of that review.

        Table 4. Contingency Planning for Selected Systems
        Operating                      Systems            Off-site    Evidence of
      Administration*                                    Recovery      Testing
                                                         Capability
      FAA                   Cost Accounting                 No           N/A
      FAA                   Labor Distribution             Yes           No
      FAA                   Logistics Support              Yes           Yes
      FAA                   Aircraft Safety Inspection     Yes           No
      FAA                   Human Resources                Yes           No
      MARAD                 Financial Management           Yes           Yes
      NHTSA                 Crash Investigation            Yes           Yes
      BTS                   Transportation Statistics       No           N/A
     * See Exhibit C for definitions of acronyms.

In addition, we found that policy governing the physical distance between system
primary and backup processing sites has not been completed. The CIO office
plans to issue this policy by December 2004. However, some OAs plan to invest
more money to further equip recovery sites that may not meet the minimum
distance requirements.

The CIO office needs to ensure that OAs do not make uneconomic investments in
recovery sites that could be superceded by the December 2004 policy and require
OAs to develop and test off-site disaster recovery capabilities.

Personnel Security
Another persistent weakness concerning DOT’s information security program was
the lack of background checks on contractor personnel. Background checks are
important because of the large number of contractor personnel (about 18,000)
performing sensitive system work, such as air traffic control system development
and maintenance, network security, and system security certification reviews.
Background checks help to determine whether a particular individual is suitable
                                                                                                                19


for a given position. In FY 2003, we reported that DOT did not conduct
background checks on contractor employees performing sensitive security work.
As a result, contractor personnel were given inappropriate access to sensitive
information, such as system vulnerability assessments and threat analyses, without
any background checks.

During FY 2004, in response to our recommendations, DOT changed its practices
by requiring background checks solely based on the sensitivity of the work and
regardless of the contract length. Previously, checks were not performed if the
contract term was for less than 6 months. DOT also established new procedures11
requiring quarterly updates from OAs concerning contractor personnel, such as
who began work, who had access to DOT facilities and systems during that
quarter, and who previously had access but no longer needed access.

This year, we sampled 122 contractor personnel who were associated with the
20 systems we selected for review for background checks.12 All individuals had
received proper background checks commensurate with the sensitivity of their
jobs.

RECOMMENDATIONS

To improve IT management controls, we recommend that the DOT CIO:

     1. Require OAs to follow departmental guidance when estimating IT project
        costs.

     2. Periodically review OA review board activities to ensure that they follow
        existing guidance and adequately manage their IT investments.

To improve network and Internet (web) security, we recommend that the
DOT CIO:

     3. Periodically verify that the OAs have performed adequate vulnerability
        checks and taken timely corrective actions on vulnerabilities identified.

     4. Issue software configuration standards for PC-based Windows and finalize
        the configuration standard for the Oracle database and web applications.

     5. Periodically check OA compliance with configuration standards.
11
   The Assistant Secretary for Administration memorandum to all heads of Operating Administrations and secretarial
   offices on May 17, 2004.
12
   In this audit, we limited the review of background checks to contractor personnel working on 20 computer systems.
   We have a separate audit underway with more comprehensive coverage of this issue.
                                                                                  20



  6. Enforce the requirements that OAs obtain annual security assurance from
     contractors that host OA web sites or terminate these contractors’ services.

To enhance the quality of OA system security certification reviews, we
recommend that the DOT CIO:

  7. Increase quality assurance checks of OA system certification work and
     communicate the review results to OAs to ensure that identified weaknesses
     are corrected timely.

  8. Issue guidance requiring that remaining security weaknesses and needed
     corrective actions be summarized and presented to the responsible senior
     official when accrediting systems for operations.

  9. Require FAA to justify the low-risk level assigned to one air traffic control
     surveillance system and the labor distribution system, and examine FAA’s
     procedures for testing air traffic control system security.

  10. Modify DOT guidance to ensure that accreditation statements are approved
      by appropriate senior officials, and require the Office of the Secretary and
      the National Highway Traffic Safety Administration to obtain accreditation
      approval from higher level senior officials in the user organization for the
      systems we identified.

  11. Remove the BTS transportation statistics system from the list of accredited
      systems, examine the security certification review process employed by
      BTS for appropriateness, and obtain a new certification review.

To improve air traffic control system security, we recommend that the
departmental Investment Review Board monitor FAA’s implementation of
the following corrective actions:

  12. Complete security certification reviews of all operational air traffic control
      systems within 3 years.

  13. Implement and test a cost-effective contingency plan to restore essential air
      service in the event of a prolonged service disruption at an en route facility.

To improve system contingency planning, we recommend that the DOT CIO:

  14. Review OA disaster recovery plans to ensure all OAs develop and test
      off-site disaster recovery capabilities for critical business operations.
                                                                               21


   15. Ensure that OAs do not make uneconomic investments in recovery sites
       that could be superceded by future policy guidance to be issued governing
       the minimum distance between system primary and recovery processing
       sites.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
The CIO office reviewed a draft of this report and provided oral comments. CIO
office officials stated that they were pleased that the report recognized the
significant progress made this year to improve IT management and strengthen
computer security.        They also agreed with the report’s findings and
recommendations and stated they will provide written comments describing the
specific actions they will take to implement the recommendations.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. Please
indicate the specific actions taken or planned for each recommendation and a
target date for completion. You may provide alternative courses of action that you
believe would resolve the issues presented in this report.

We appreciate the courtesies and cooperation of the Office of the Chief
Information Officer and the Operating Administrations’ representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1992 or Theodore Alves, Assistant Inspector General for Financial and
Information Technology Audits, at (202) 366-1496.

                                        #


cc: Deputy Secretary
    Federal Aviation Administrator
    Martin Gertel, M-1
EXHIBIT A. OIG INPUT TO FISMA REPORT                                                            22




                                               2004 FISMA Report
                  Agency:                             Department of Transportation


                  Date Submitted:        10/01/2004

                  Submitted By:          OIG

                  Contact Information:
                             Name:       Alexis M. Stefani
                             E-mail:     alexis.stefani@oig.dot.gov
                             Phone:      (202) 366-1992


                                         To enter data in allowed fields, use password: fisma
                                                                                                                                                                                                                         23


Section A: System Inventory and IT Security Performance
NOTE: ALL of Section A should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma


    A.1. By bureau (or major agency operating component), identify the total number of programs and systems in the agency and the total number of contractor operations or facilities. The agency CIOs
    and IG's shall each identify the total number that they reviewed as part of this evaluation in FY04. NIST 800-26, is to be used as guidance for these reviews.



    A.2. For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or major agency operating component) in the format provided below.


                                                                   A.1                                                                                       A.2

                                          A.1.a.               A.1.b.               A.1.c.                A.2.a.                  A.2.b.                 A.2.c.                  A.2.d.                 A.2.e.

                                    FY04 Programs          FY04 Systems        FY04 Contractor         Number of                Number of               Number of      Number of systems     Number of
                                                                                Operations or       systems certified         systems with          systems for which with a contingency systems for which
                                                                                  Facilities         and accredited          security control        security controls        plan       contingency plans
                                                                                                                             costs integrated        have been tested                     have been tested
                                                                                                                            into the life cycle      and evaluated in
                                                                                                                              of the system            the last year


                                    Total  Number          Total     Number     Total    Number      Total    Percent of     Total    Percent of     Total     Percent of    Total   Percent of     Total Percent of
            Bureau Name            Number Reviewed        Number    Reviewed   Number   Reviewed    Number      Total       Number      Total       Number       Total      Number     Total       Number   Total
    BTS                                   1           1         4          1        1           0         0          0.0%         1        100.0%        1         100.0%        0          0.0%         0      0.0%
    FAA                                   1           1       285         10       12          12        10        100.0%         8         80.0%        7          70.0%        9         90.0%         5     50.0%
    FHWA                                  1           1        24          1        2           2         1        100.0%         1        100.0%        1         100.0%        1        100.0%         1    100.0%
    FMCSA                                 1           1        19          1        4           1         1        100.0%         1        100.0%        1         100.0%        1        100.0%         0      0.0%
    FRA                                   1           0        22          0        2           1         0
    FTA                                   1           1         9          1        2           1         1        100.0%         1        100.0%        1         100.0%        1        100.0%         1    100.0%
    MARAD                                 1           1        12          1        4           0         1        100.0%         1        100.0%        1         100.0%        1        100.0%         1    100.0%
    NHTSA                                 1           1        38          1        2           1         1        100.0%         1        100.0%        1         100.0%        1        100.0%         1    100.0%
    RSPA                                  1           1        15          1        0           0         1        100.0%         1        100.0%        1         100.0%        1        100.0%         1    100.0%
    SLSDC                                 1           0         1          0        3           0         0
    STB                                   1           0         2          0        0           0         0
    OST                                   1           1        54          3        0           0         3        100.0%         3        100.0%        3         100.0%        3        100.0%         3    100.0%




Agency Total                             12           9       485         20       32          18        19         95.0%        18         90.0%       17          85.0%       18         90.0%        13       65.0%

Comments:
A.1.c: The total number of contractor operated facilities (32) was reported by DOT. However, during our review we found that Operating Administrations are reporting the number of contractor
operations or facilities inconsistently. For example, three Operating Administrations (FAA, FHWA, and RSPA) did not include contractor provided web services in the reporting, while others did.
A.2.a: Our sample review of 20 systems, which were reported as having completed C&A reviews, identified deficiencies in the areas of assessing system certification levels, testing security controls,
informing senior management of remaining security weaknesses, and approving systems for operations (accreditation). As a result of our review, we concluded the BTS system was not properly
reviewed, and made a specific recommendation for the DOT CIO to examine the security certification review process employed by BTS for appropriateness.
A.2.b: We did not find any funding requests, and associated security costs, for two systems in the Department's Exhibit 53 submission.
A.2.c: As stated in our audit report, we did not find any documented evidence of security control testing for three of the five air traffic control systems we sampled.
A.2.d. & A.2.e: We made specific recommendations to improve system contingency planning in our audit report.
                                                                                                                                                                                                       24



                                                                                                     A.3


   A.3. Evaluate the degree to which the following statements reflect the status in your agency, by choosing from the responses provided in the drop down menu. If appropriate or necessary, include
   comments in the Comment area provided below.


                                                               Statement                                                                                          Evaluation


        a. Agency program officials and the agency CIO have used appropriate methods to ensure that contractor provided services or
        services provided by another agency for their program and systems are adequately secure and meet the requirements of                             Mostly, or 81-95% of the time
        FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.


        b. The reviews of programs, systems, and contractor operations or facilities, identified above, were conducted using the NIST
                                                                                                                                                         Mostly, or 81-95% of the time
        self-assessment guide, 800-26.


        c. In instances where the NIST self-assessment guide was not used to conduct reviews, the alternative methodology used
                                                                                                                                                    Almost Always, or 96-100% of the time
        addressed all elements of the NIST guide.


        d. The agency maintains an inventory of major IT systems and this inventory is updated at least annually.                                   Almost Always, or 96-100% of the time



        e. The OIG was included in the development and verification of the agency’s IT system inventory.                                            Almost Always, or 96-100% of the time



        f. The OIG and the CIO agree on the total number of programs, systems, and contractor operations or facilities.                             Almost Always, or 96-100% of the time


        g. The agency CIO reviews and concurs with the major IT investment decisions of bureaus (or major operating components)
                                                                                                                                                    Almost Always, or 96-100% of the time
        within the agency.

                                                               Statement                                                                                          Yes or No


        h. The agency has begun to assess systems for e-authentication risk.                                                                                         Yes


        i. The agency has appointed a senior agency information security officer that reports directly to the CIO.                                                   Yes


Comments:
A.3.a,b&c: We reviewed 18 contractor operations and found that 2 did not receive any security reviews. The others received C&A reviews (13), self assessments (2), and a SAS-70 review (1). We
have concluded that all reviews complied with NIST 800-26.

A.3.d&e: DOT reduced its system inventory from 630 to 485 systems (a reduction of 145). FAA reduced its inventory from 421 to 285 systems (a reduction of 136)--94 percent of the total reduction.
FAA provided support and stated the reduction was due mainly to system consolidation. We were able to reconcile the inventory records between the 2 years.

A.3.f: We agree with the number of programs and systems, however, as we commented under A.1.c., Operating Administrations did not consistently include contractor operated web sites in their
inventories. We estimate that at least 9 contractor-operated web sites were not included in the number of contractor operations or facilities report by the CIO Office.
                                                                                                                                                                               25


Section B: Identification of Significant Deficiencies
NOTE: ALL of Section B should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma


   B.1. By bureau, identify all FY 04 significant deficiencies in policies, procedures, or practices required to be reported under existing law. Describe each on a separate
   row, and identify which are repeated from FY03. In addition, for each significant deficiency, indicate whether a POA&M has been developed. Insert rows as needed.


                                                                                          B.1.
                                                                                                 FY04 Significant Deficiencies
                                                            Number                                                                                               POA&M
                                              Total        Repeated                                                                                            developed?
             Bureau Name                     Number       from FY03                         Identify and Describe Each Significant Deficiency                   Yes or No
                                                                          None reported




Agency Total                                          0               0


Comments:
For the last 3 years, DOT has reported its information security program as a material internal control weakness under the Federal Managers’ Financial Integrity Act
(FMFIA). During FY 2004, DOT made a concerted effort to correct weaknesses identified in previous years. Based on the progress the Department made, we are of the
opinion that the DOT’s information security program should be reported as a reportable condition.
Section C: OIG Assessment of the POA&M Process                                                                                                                    26
NOTE: Section C should *ONLY* be completed by the OIG. The CIO should leave this section blank.
To enter data in allowed fields, use password: fisma

   C.1. Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency-wide plan of
   action and milestone (POA&M) process. This question is for IGs only. Evaluate the degree to which the following statements reflect the status in your agency
   by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided below.

                                                                                   C.1
                                                 Statement                                                                      Evaluation

        a. Known IT security weaknesses, from all components, are incorporated into the POA&M.                Almost Always, or 96-100% of the time

        b. Program officials develop, implement, and manage POA&Ms for systems they own and
                                                                                                              Almost Always, or 96-100% of the time
        operate (systems that support their program or programs) that have an IT security weakness.

        c. Program officials report to the CIO on a regular basis (at least quarterly) on their remediation
                                                                                                              Almost Always, or 96-100% of the time
        progress.

        d. CIO develops, implements, and manages POA&Ms for every system they own and operate (a
                                                                                                              Almost Always, or 96-100% of the time
        system that supports their program or programs) that has an IT security weakness.

        e. CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.       Mostly, or 81-95% of the time

        f. The POA&M is the authoritative agency and IG management tool to identify and monitor agency
                                                                                                              Frequently, or 71-80% of the time
        actions for correcting information and IT security weaknesses.
        g. System-level POA&Ms are tied directly to the system budget request through the IT business
                                                                                                              Rarely, or 0-50% of the time
        case as required in OMB budget guidance (Circular A-11).

        h. OIG has access to POA&Ms as requested.                                                             Almost Always, or 96-100% of the time

        i. OIG findings are incorporated into the POA&M process.                                              Sometimes, or 51-70% of the time


        j. POA&M process prioritizes IT security weaknesses to help ensure that significant IT security
                                                                                                              Mostly, or 81-95% of the time
        weaknesses are addressed in a timely manner and receive appropriate resources.


Comments:
C.e&f: The Department has developed a database to centrally track, maintain, and review the POA&Ms. However, because Operating Administrations are not
consistently updating the database, the centrally maintained POA&M information is not always reliable. OIG found inconsistent information between the database
and the hard-copy POA&Ms prepared by Operating Administrations. The CIO office agreed to work with Operating Administrations to enhance the POA&M
database.
C.g: Per OMB guidance, we reviewed the POA&Ms for 20 systems and found that project IDs, which enable OMB to tie POA&Ms directly to the system budget
requests, were missing for 15 systems. According to the CIO office, this information will be added.

C.i: We sampled 4 systems which received audit coverage in FY 2004 and found critical findings were not incorporated into the system's POA&Ms in 2 cases.
                                                                                                                                                                                27




   C.1 OIG Assessment of the Certification and Accreditation Process
   Section C should only be completed by the OIG. OMB is requesting IGs to assess the agency’s certification and accreditation process in order to provide a qualitative
   assessment of this critical activity. This assessment should consider the quality of the Agency’s certification and accreditation process. Any new certification and
   accreditation work initiated after completion of NIST Special Publication 800-37 should be consistent with NIST Special Publication 800-37. This includes use of the FIPS
   199, “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as
   guidance for completing risk assessments and security plans. Earlier NIST guidance is applicable to any certification and accreditation work completed or initiated before
   finalization of NIST Special Publication 800-37. Agencies were not expected to use NIST Special Publication 800-37 as guidance before it became final.



                                                     Statement                                                                              Evaluation


As stated in our audit report, the Department has made good progress in completing security certification reviews
during FY 2004. However, when we checked a sample of 20 systems, we identified deficiencies in 14 systems. The
deficiencies were in the area of assessing systems risks; testing security controls; informing management of
remaining weaknesses; and approving systems for operations. The CIO office agreed to continue its efforts to
enhance the quality of OA security certification reviews.


We also identified the need for continued departmental management support and monitoring to complete the
remaining certification reviews at FAA.



While FAA certified air traffic control systems security, the reviews were limited to developmental systems located at                      Satisfactory
FAA’s Technical Center computer laboratory. Operational systems deployed to air traffic control facilities also need
to be reviewed. To comply with FISMA requirements, FAA needs to commit to reviewing all operational air traffic
control systems—at en route, approach control, and airport terminal facilities—within 3 years.



Six systems remaining to be certified by FAA involve local area network systems installed at hundreds of locations.
Since there is no assurance that network systems at all these locations have the same configuration or operate the
same way, FAA may have to perform certification reviews at all installation sites.
Section D
NOTE: ALL of Section D should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma
                                                                                                                                                                  28
   D.1. First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For D.1.a-f, identify whether agencywide security configuration
   requirements address each listed application or operating system (Yes, No, or Not Applicable), and then evaluate the degree to which these configurations
   are implemented on applicable systems. For example: If your agency has a total of 200 systems, and 100 of those systems are running Windows 2000, the
   universe for evaluation of degree would be 100 systems. If 61 of those 100 systems follow configuration requirement policies, and the configuration controls
   are implemented, the answer would reflect "yes" and "51-70%". If appropriate or necessary, include comments in the Comment area provided below.




   D.2. Answer Yes or No, and then evaluate the degree to which the configuration requirements address the patching of security vulnerabilities. If appropriate
   or necessary, include comments in the Comment area provided below.

                                                                         D.1. & D.2.                                        D.1.                D.2.


                                                                                                                            Yes,
                                                                                                                           No, or
                                                                                                                            N/A              Evaluation
D.1. Has the CIO implemented agencywide policies that require detailed specific security configurations and what is the
degree by which the configurations are implemented?                                                                         Yes
                a. Windows XP Professional

                b. Windows NT

                c. Windows 2000 Professional


                d. Windows 2000


                e. Windows 2000 Server


                f. Windows 2003 Server


                g. Solaris


                h. HP-UX


                i. Linux

                j. Cisco Router IOS

                k. Oracle

                l. Other. Specify:

                                                                                                                           Yes or
                                                                                                                                             Evaluation
                                                                                                                            No
        D.2. Do the configuration requirements implemented above in D.1.a-f., address patching of security
        vulnerabilities?                                                                                                    Yes

Comments:
D.1 a-l: During 2004, the CIO office issued security baseline standards for configuring computer systems using the following 5 software packages; server-based
Windows, Linux, Solaris, Cisco (router), and wireless devices (PDA). As stated in our audit report, while DOT is moving at the right direction by implementing
these configuration management controls, we identified two enhancement needs—issuing configuration standards for additional commonly used software and
developing an enforcement process. Since DOT is in the an early stages of implementing these standards, we plan to perform a more detailed review in FY
2005.
                                                                                                                                                                                      29



Section E: Incident Detection and Handling Procedures
NOTE: ALL of Section E should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   E.1. Evaluate the degree to which the following statements reflect the status at your agency. If appropriate or necessary, include comments in the Comment area provided
   below.

                                                                                         E.1

                                                          Statement                                                                                     Evaluation


                 a. The agency follows documented policies and procedures for reporting incidents internally.                         Almost Always, or 96-100% of the time

                 b. The agency follows documented policies and procedures for external reporting to law enforcement
                                                                                                                                      Almost Always, or 96-100% of the time
                 authorities.
                 c. The agency follows defined procedures for reporting to the United States Computer Emergency Readiness
                                                                                                                                      Almost Always, or 96-100% of the time
                 Team (US-CERT). http://www.us-cert.gov
                                                                                        E.2.
   E.2. Incident Detection Capabilities.
                                                                                                                                          Number of         Percentage of
                                                                                                                                           Systems          Total Systems
                         a. How many systems underwent vulnerability scans and penetration tests in FY04?                                             369
                         b. Specifically, what tools, techniques, technologies, etc., does the agency use to mitigate IT security risk?
                                  Answer:
                                     DOT uses Foundstone scanning software to regularly scan its 400 websites and about 14,000 computer systems on OAs internal networks.




Comments:
E.2.a: DOT reported that 369 IP-based systems underwent vulnerability scans as part of its C&A requirements. We generally concurred with this statement based on our sample
review of system certification reviews.
E.2.b: DOT has effectively followed applicable policies and procedures for reporting incidents internally and externally to law enforcement and to the US-CERT. DOT also used
Foundstone scanning software to regularly scan its 400 websites and about 14,000 computer systems on Operating Administrations' internal networks. However, as stated in our
audit report, the vulnerability checks (scans) did not cover all computers on Operating Administrations' private networks, and vulnerabilities found were not always corrected in a
timely manner.
                                                                                                                                                                                 30


Section F: Incident Reporting and Analysis
NOTE: ALL of Section F should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma
   F.1. For each category of incident listed: identify the total number of successful incidents in FY04, the number of incidents reported to US-CERT, and the number
   reported to law enforcement. If your agency considers another category of incident type to be high priority, include this information in category VII, "Other". If
   appropriate or necessary, include comments in the Comment area provided below
   F.2. Identify the number of systems affected by each category of incident in FY04. If appropriate or necessary, include comments in the Comment area provided
   below.
                                                                              F.1., F.2. & F.3.
                                                                                    F.1.                                                     F.2.
                                                                      Number of Incidents, by category:                   Number of systems affected, by category, on:



                                                                     F.1.a               F.1.b.         F.1.c.         F.2.a.          F.2.b.              F.2.c.
                                                                  Reported           Reported to US- Reported to  Systems with Systems without     How many successful
                                                                  internally             CERT            law     complete and up- complete and up- incidents occurred for
                                                                                                     enforcement   to-date C&A      to-date C&A   known vulnerabilities for
                                                                                                                                                     which a patch was
                                                                                                                                                         available?




                                                                                                                      Number of       Number of
                                                                 Number of            Number of       Number of        Systems         Systems        Number of Systems
                                                                 Incidents            Incidents       Incidents        Affected        Affected           Affected

     I.   Root Compromise                                                       2                 0               0

     II. User Compromise                                                        0                 0               0

     III. Denial of Service Attack                                              0                 0               0

     IV. Website Defacement                                                     5                 5               5


     V. Detection of Malicious Logic                                            5                 5               0

     VI. Successful Virus/worm Introduction                                    379             338                0

     VII. Other                                                                 0                 0               0
                                                      Totals:                  391             348                5               0               0                          0

Comments:
The totals provided in F.a.b and F.1.c. were provided by the Office of the CIO. However, according to US-CERT, DOT reported a total of 3,125 incidents in FY 2004.
According to the CIO office, the difference is a result of different methods of categorizing an "incident." For example, the CIO office reports a virus as one incident, while
the US-CERT reports the number of machines affected by the virus.
                                                                                                                                                                   31



Section G: Training
NOTE: ALL of Section G should be completed by BOTH the Agency CIO and the OIG.
To enter data in allowed fields, use password: fisma

   G.1. Has the agency CIO ensured security training and awareness of all employees, including contractors and those employees with significant IT
   security responsibilities? If appropriate or necessary, include comments in the Comment area provided below.
                                                                              G.1.
     G.1.a.                  G.1.b.                G.1.c.                    G.1.d.                              G.1.e.                           G.1.f.

Total number of Employees that received IT Total number of Employees with significant              Briefly describe training provided         Total costs for
 employees in security awareness training employees with security responsibilities that                                                        providing IT
     FY04        in FY04, as described in   significant IT     received specialized                                                         security training in
                 NIST Special Publication      security      training, as described in                                                             FY04
                         800-50            responsibilities NIST Special Publications                                                            (in $'s)
                                                                800-50 and 800-16



                   Number        Percentage                        Number        Percentage



    59,867          58,413            98             445              445             100              See Comment Box Below                    $463,616


                                                                               G.2.
                                                                            Yes or No
   a. Does the agency explain policies regarding peer-to-peer
   file sharing in IT security awareness training, ethics                     Yes
   training, or any other agency wide training?
                                                                Yes             No
Comments:
G.1.a,b,c,d: This information was provided by Office of the CIO. OIG generally concurs with the reported information based on our review of training
records provided.
G.1.e: DOT sponsored training in the areas of computer forensics, wireless security, intrusion detection, user awareness, identity theft, privacy, contingency
planning, certification & accreditation, designated approving authority, and risk management. On-site vendor training (CISSP), and computer-based training
(system security administration, user awareness) were also provided.
                                                                              32




EXHIBIT B. SCOPE AND METHODOLOGY
During fiscal year (FY) 2004, we fulfilled the requirements under FISMA by
reviewing DOT major financial systems, FAA air traffic control systems, and the
implementation of IT capital planning and investment control procedures and
DOT’s modernization plan (Enterprise Architecture). In addition, we sampled 20
OA systems that had undergone security certification reviews to determine
whether the OAs have complied with Government and DOT standards in assessing
system risks, identifying security requirements, testing security controls, and
accrediting systems to support business operations.

We reviewed the reasonableness of DOT’s continued reduction of computer
systems in its inventory (from 630 to 485) during FY 2004 and assessed DOT’s
progress in correcting weaknesses identified in last year’s FISMA review. We
also provided input to DOT’s FISMA report by answering questions specified by
the Office of Management and Budget.

We used the audit methodologies recommended by the Government
Accountability Office, and guidelines issued by other Government authorities such
as the National Institute of Standards and Technology. We used commercial
scanning software to assess contractor-operated web site vulnerabilities.

We performed our work throughout FY 2004 and focused on reviewing FISMA
reporting between July 2004 and September 2004 at DOT and OAs’ Headquarters
located in Washington, D.C. The audit was conducted in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.

We previously issued three audit reports on DOT’s information security program
in response to the legislative mandate of the Federal Information Security
Management Act (FISMA), formerly the Government Information Security
Reform Act (GISRA). They are “DOT Information Security Program,” Report
Number FI-2003-086, September 25, 2003; “DOT Information Security Program,”
Report Number FI-2002-115, September 27, 2002; and “DOT Information
Security Program,” Report Number FI-2001-090, September 7, 2001.




Exhibit B. Scope and Methodology
                                                         33




EXHIBIT C. DOT OPERATING ADMINISTRATIONS
Bureau of Transportation Statistics (BTS)

Federal Aviation Administration (FAA)

Federal Highway Administration (FHWA)

Federal Motor Carrier Safety Administration (FMCSA)

Federal Railroad Administration (FRA)

Federal Transit Administration (FTA)

Maritime Administration (MARAD)

National Highway Traffic Safety Administration (NHTSA)

Office of the Secretary (OST)

Research and Special Programs Administration (RSPA)

Surface Transportation Board (STB)

Saint Lawrence Seaway Development Corporation (SLSDC)




Exhibit C. DO T Operating Admi nistrat ions
                                                                      34




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                Title

  Rebecca Leng                        Deputy Assistant Inspector General
                                       for Information Technology and
                                       Computer Security

  Nathan Custer                       Project Manager

  Ping Sun                            Project Manager

  Philip deGonzague                   Project Manager

  Michael Marshlick                   Computer Scientist Advisor

  James Mallow                        Senior Auditor

  Henry Lee                           Senior Computer Scientist

  John Johnson                        Senior Information Technology
                                       Specialist

  Mitchell Balakit                    Information Technology Specialist

  Bradley Kistler                     Information Technology Specialist

  Jean Yoo                            Information Technology Specialist

  Aaron Nguyen                        Computer Scientist

  Pinaki Sandra                       Information Technology Specialist




Exhibit D. Major Contributors to This Report
